United States Court of Appeals
For the First Circuit
No. 19-1846
ABEBA MEKONNEN,
r 1

Plaintiff - Appellant,
v.
OTG MANAGEMENT, LLC,
Defendant - Appellee,
WALIB KHAYAT, in his individual capacity,
Defendant.

Before
Thompson, Kayatta and Barron,
Circuit Judges.
JUDGMENT
Entered: March 23, 2021
Plaintiff-appellant,Abebe Mekonnen .appeals fromji final judgment.entered in ^r of
--------- defendant^appell^OTG Management. LLC. After our careful de novo review of the whole record
and consideration of the arguments presented by the parties, and bypassing ambiguity in the record
““gTlorship of fnd authenticity of plaintiff-appellant's signature on the opemng ajd
“ W briefs, we affimt, substantially on the reasoning of the distnct “urts J“ly ?5 2019
memorandum and order. We agree that the record presents no genuine issue of triable fact to
claim asserted in the amended complaint. Plaintiff-appellant has not persuasively
any
demonstrated that the district court's reasoning was unsound, or that the district court overloo e
anv evidence in reaching its disposition. Moreover, we see no abuse of discretion in the discovery
orders entered by the district court, including the orders prohibiting Begashaw Ayele from eithe
partid patiTgi n the litigation or appearing a. plaintiff-appellant's deposition. Fmallywerejec
plaintiff-appellant's contention that the district court judge exhtbited b.as or prejudice
4ispositionujLthela3KSu.it---------------------------------------------------- ------------------i,.-.

/W

--------

The judgment of the district court is affirmed. See 1st Cir. R. 27.0(c).
By the Court:
Maria R. Hamilton, Clerk
cc:
Abeba Mekonnen
Gregory A. Manousos
Sean Philip O'Connor

r

c?

Case l:12-cv-12183-DPW Document 199 Filed 07/25/19 Page 1 of 1

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS

ABEBA MEKONNEN,
Plaintiff,
v.
OTG MANAGEMENT, LLC. and
WALID KHAYAT,
Defendants.

)
)
)

) CIVIL ACTION NO.
) 12-12183-DPW
)
)
)

FINAL JUDGMENT
WOODLOCK, D.J.
In accordance with this Court's Memorandum and Order issued
on this day (ECF #198), it is hereby ORDERED:
Judgment for the Defendant, OTG Management, LLC as to all
of the Plaintiff's discrimination claims.
Judgment for the Plaintiff, Abeba Mekonnen, as to her Wage
Act claim, in the liquidated damage amount of $26.16 with
prejudgment interest in the amount of $30.38, plus costs in
the amount of $280.00, for a total judgment of $336.54.
FURTHER, the Defendant, Walid Khayat, having been
previously dismissed upon the granting of the Plaintiff's Motion
to Dismiss [ECF #90] on September 23, 2014, this case is hereby
CLOSED.
BY THE COURT,
/s/ Barbara I. Beatty
DATED:
NOTE:

July 25, 2019

Deputy Clerk

The post judgment rate effective this date is 1.95%.

C^

394 F. Supp. 3d. 134(2019)
ABEBA MEKONNEN, Pro se
Plaintiff
v.
OTG MANAGEMENT, LLC.
Defendant.

CIVIL ACTION NO. 12-12183DPW

United States District Court, District of Massachusetts.
Filed July 25,2019.
Sean P. O'Connor' Gregory A. Manousos, Morgan, Brown & Joy LLP,
Boston, MA, for Defendant.
MEMORANDUM AND ORDER
DOUGLAS P. WOODLOCK, UNITED STATES DISTRICT JUDGE.
Plaintiff Abeba Mekonnen has proceeded pro sem in this workplace discrimination action
against her former employer Defendant OTG Management, LLC, alleging several
different theories of discrimination under Title VII of the Civil Rights Act of 1964, the
Americans with Disabilities Act ("ADA"), and state law.
LBACKGROUND
A. Facts
OTG operates a CIBO Express Gourmet Market at Logan Airport in Boston, MA, where
it employs both utility workers, who transport materials from the storage room to the
storefront, and cashiers.
Ms. Mekonnen applied for a cashier position at the CIBO Express Gourmet Market on
July 2, 2007. In her application, she indicated that she preferred to work from 1 PM to 10
PM and that she needed Sunday mornings off to attend church. Ms. Mekonnen is an
Orthodox Christian. The only shift OTG had available at the time was an early morning
shift from 5 AM to 1 PM. Ms. Mekonnen accepted the early morning shift, with the hope

1

that she would be able to have Sunday mornings off, and began working for OTG on
August 4,2007.
The parties dispute whether OTG required Ms. Mekonnen to work on Sunday mornings
in 2007. According to William Khayat, a former Terminal Director for OTG, Ms.
Mekonnen's regular work schedule was Monday to Friday and every effort was made to
avoid scheduling her shifts on Sunday. Ms. Mekonnen claims she had to work during
church services approximately two or three times in her first month at OTG. OTG no
longer has copies of Ms. Mekonnen's work schedule from 2007 and 2008, but payment
records indicate Ms. Mekonnen worked several Sundays in 2007, including every Sunday
in December 2007.
The parties also dispute whether Ms. Mekonnen informed OTG that she had a disability
in 2007. Ms. Mekonnen claims that in early August 2007, she told her direct supervisor
Lily Molla that she had a leg problem and requested to sit in an elevated chair during her
shift. In addition, she claims she gave OTG a medical certificate from Ethiopia that stated
she suffers from osteoarthritis in her right knee. Mr. Khayat denied ever seeing the
Ethopian medical certificate and claimed Ms. Mekonnen never informed him she was
disabled.
A few weeks after Ms. Mekonnen started work, Begashaw Ayele, Ms. Mekonnen's then
husband, who also worked at Logan Airport, had a conversation with Mr. Khayat
143*143 about issues Ms. Mekonnen was having at OTG. Mr. Ayele told Mr. Khayat that
Ms. Mekonnen was concerned about having to work on Sunday mornings. According to
Mr. Ayele, he also informed Mr. Khayat that Ms. Mekonnen had a permanent leg injury.
Mr. Khayat recalled that a discussion with Mr. Ayele took place, but did not recall any
discussion of Ms. Mekonnen's medical issues. Mr. Ayele wrote a letter to Mr. Khayat a
few days later, in which he informed Mr. Khayat that recently at OTG "a Christian
employee who was offered full time job from Monday to Friday was required to work on
his/her religious observance day all in favor of a Muslim employee."121 Mr. Ayele cited
MASS. GEN. LAWS ch. 149 § 103 and wrote that "[according [to] this statute,
employers must allow employees to do their work in a seated position ... all industries
are covered and OTG is no exception." Mr. Ayele also claims he later called the human
resources department at OTG to discuss these issues.
Ms. Mekonnen claims Mr. Khayat and Ms. Molla treated her less favorably after Mr.
Ayele sent the letter. According to Ms. Mekonnen, they prevented her from taking a
lunch break until approximately an hour before her shift ended and from taking bathroom
breaks during her shift. She also claims Mr. Khayat and Ms. Molla assigned her tasks that
were not a part of her regular duties and failed to provide her with the proper change for
her register at the start of her shift. Mr. Khayat denies that he treated Ms. Mekonnen
differently than any other employee when it came to providing her with meal breaks,
restroom breaks, or proper change for her register.
In January 2008, Ms. Mekonnen was injured at work when a door fell on her leg. She
sprained her knee and had a contusion, but did not break any bones. She received two

2

doctor's notes: one on January 22,2008 which advised her to remain out of work for three
days, and one on February 11, 2008 which advised her to remain out of work for five
days. Ms. Mekonnen returned to work after two weeks and continued working full-time.
During Ms. Mekonnen's time with OTG, the company received mixed feedback about her
from customers; the trend in this feedback suggested diminishing performance over time.
In this connection, OTG participated in a "secret shopper" program, in which customers
would visit stores and report on their experiences. In the first report about Ms.
Mekonnen, dated August 27, 2007, she received an overall score of 78% and was
described as having "a lovely smile and demeanor" that "made [the customer] feel very
welcome." In a second report, dated November 16,2007, she received an overall score of
58%. This "customer" found that Ms. Mekonnen did not understand English well and did
not demonstrate knowledge of the items for sale. In the third report, dated May 8, 2009,
Ms. Mekonnen received an overall score of 32%. The customer found that "[interacting
with the unfriendly Associate was memorable" and reported that Ms. Mekonnen was
talking on her cell phone when the customer entered the store. OTG had previously
received a complaint that Ms. Mekonnen took a personal phone call while checking out a
customer on February 9, 2009. Ms. Mekonnen claims she was not on her cell phone
during either of these exchanges.
Ms. Mekonnen was also disciplined repeatedly by her supervisors at OTG. She received
and signed a written warning on 144*144 June 10,2008 for sitting on top of a plastic box
while working. Ms. Mekonnen admits she would sit at times while she worked, but
claims she had to do so because of her knee issues. On May 19, 2009, Ms. Mekonnen
received a written warning for failing to check the expiration date on a product. The
warning noted that the consequence of further infractions would be termination. Ms.
Mekonnen's signature does not appear on this written warning. Ms. Mekonnen claims
utility workers at OTG, not cashiers, were responsible for inspecting the expiration dates
of products.
Subsequently, Ms. Mekonnen received another low score on a secret shopper report and
she was terminated on November 19, 2009. Her termination form listed the reason for
firing as "poor job performance, 3 below avg. failing secret shopper scores."
B. Procedural History
Ms. Mekonnen filed an administrative charge of discrimination and retaliation with the
Equal Employment Opportunity Commission ("EEOC") and the Massachusetts
Commission Against Discrimination ("MCAD") on May 10, 2010. She also filed a
complaint with the Massachusetts Office of the Attorney General regarding OTG's
alleged failure to pay out her accrued vacation time promptly. On May 25, 2010, the
Attorney General granted Ms. Mekonnen the right to bring an action.
The MCAD dismissed Ms. Mekonnen's complaint on April 30, 2012. Thereafter, the
EEOC sent her a right to sue letter on August 28,2012.

3

h '31

Ms. Mekonnen initially filed her complaint in state court and OTG removed the case to
this court on November 23, 2012. Ms. Mekonnen filed an amended complaint on April
23, 2014. She alleged that OTG discriminated against her on the basis of her disability,
religion, sex, and age in violation of state and federal law. She also alleged that OTG
retaliated against her for raising such claims with management. With respect to wages
and hours, Ms. Mekonnen alleged that OTG had failed to pay out her vacation benefits,
and that it violated MASS. GEN. LAWS ch. 136 § 6(50) and § 16 by forcing her to work
on Sunday. Finally, Ms. Mekonnen brought assorted claims against Mr. Khayat in his
individual capacity. I have dismissed Ms. Mekonnen's age discrimination claim, her
claim under MASS. GEN. LAWS ch. 136 § 6(50) and § 16, and her claims against Mr.
Khayat. OTG has moved for summary judgment as to the remaining claims.
n. MOTION TO STRIKE
Along with her opposition to summary judgment, Ms. Mekonnen submitted several
exhibits and affidavits. OTG moved to strike certain of the exhibits and sections of the
affidavits, contending that they include documents Ms. Mekonnen did not identify or
produce during discovery and statements that constitute hearsay or that were not based on
personal knowledge and therefore are inadmissible.
Under FED. R. Civ. P. 37(c)(1), "[i]f a party fails to provide information or identify a
witness as required by Rule 26(a) or (e), the party is not allowed to use that information
or witness to supply evidence on a motion." FED. R. Civ. P. 37(c)(1). If a party fails to
comply with the discovery requirements imposed by the Federal Rules and his failure to
comply is neither substantially justified nor harmless, then the belatedly offered evidence
may be stricken. Greene v. Ablon. 2012 WL 4104792. at *2 (D. Mass. Sept. 17. 20121,
affd in part, 794 F.3d 133 (1st Cir. 20151 ("In its analysis [with respect to a motion to
strike], the Court considers a number of factors ... Surprise and prejudice are important
integers in this calculation." (internal citations omitted)).
I will strike certain exhibits not produced during discovery, specifically Ms. Mekonnen's
medical certificate from Ethiopia and the three sets of cell phone records. Ms. Mekonnen
herself admits she did not provide these exhibits to OTG during discovery, despite being
required to do so. Her failure to inform OTG earlier of these exhibits is not harmless.121
The medical certificate introduced a previously underdeveloped theory of disability or
handicap into the case, while the cell phone records attempt to offer a new way of
proving that OTG's reason for terminating Ms. Mekonnen was pretextual. For the sake of
completeness, however, and because consideration of these documents does not change
my ultimate view of the merits, I will discuss them in conjunction with my consideration
of the merits of her underlying claim.
I will not strike the November 1, 2016 letter from her doctor at Massachusetts General
Hospital, though this letter was not produced as part of the original round of discovery.
The letter itself did not exist until November 1, 2016 and Ms. Mekonnen provided it to
opposing counsel on December 12, 2016. Although Ms. Mekonnen could have submitted
the letter more promptly, I do not find OTG was prejudiced by this brief delay.

4

Finally, I will not strike references to these submissions in Ms. Mekonnen's affidavit, her
other filings, and Mr. Ayele's affidavit. Ms. Mekonnen may explain the history of her leg
problems and Mr. Ayele may offer his observations of Ms. Mekonnen's condition. I will
simply treat other references to the Ethiopian medical certificate in the statement of facts
as argument.
Turning to the affidavits submitted by Ms. Mekonnen, I will strike some, but not all, of
the sections identified by OTG. Under FED. R. Civ. P. 56(c)(4), "[a]n affidavit or
declaration used to support or oppose a motion must be made on personal knowledge"
and must "set out facts that would be admissible in evidence." When striking statements
in an affidavit, a court must use "a scalpel, not a butcher knife" in order "to disregard
those parts of it that are inadmissible and to credit the remaining portions." Perez v.
Volvo Car Corv.. 247 F.3d 303.315 (1st Cir. 200U.
I will strike the portions of her submissions that constitute garden-variety hearsay. From
Ms. Mekonnen's affidavit, I will strike the part of paragraph 5, where she states: "One
day, Begashaw [Ayele]. . . asked Mr. Khayat, Ms. Molla's boss, why my request for leg
injury and religious accommodation was ignored. Begashaw told me that Khayat had no
answer." From Mr. Ayele's affidavit, I will strike the part of the second sentence of
paragraph 5, where he states: "Abeba [Mekonnen] told me that Lily's promise have
Sunday off as an to accommodation for church [sic] was not realized"; the part of the
second sentence of paragraph 14, where he states: "Abeba said T do know that they took
the money to the office but unable to know whether they pocket the money for
themselves"; the part of paragraph 15, where he states: "Abeba told me that she can not
continue to work unless she sit at a given time interval to alleviate her leg 146*146
problem"; and, the first two sentences of paragraph 16. From Samuel Negash's affidavit, I
will strike the part of paragraph 11, where he states "I heard that she [meaning Ms.
Mekonnen] was conversing with employees that Mr. Khayat had fired her for talking by
phone while she was on duty."
I also note that I will not consider the sections of Mr. Ayele's affidavit which recount his
interviews with other OTG employees as substantive evidence of how other OTG
employees were treated. This recounting is focused on the second sentence of paragraph
17 and on paragraphs 18,19, and 20.
I will not strike the sections of Ms. Mekonnen's submissions that are based upon her
review of other documents. Most of OTG's objections arise from instances where Ms.
Mekonnen provides her own understanding and interpretation of OTG's business records
or other evidence properly before me. For example, Ms. Mekonnen submitted a
document titled "Refuting Murphy's Declaration and his Exhibit No. 9," in which she
compares OTG's records of her work schedule to her own calculation of her work
schedule based on her pay records. "Motions to strike have been denied when the
declarant did not personally experience the matters discussed in the affidavit, but did
review business or public records and included information from those records with the
affidavit." Facev v. Dickhaut, 91 F. Supp. 3d 12. 20-21 fD. Mass. 20141. To the extent
these submissions could raise evidentiary concerns, I will simply treat her gloss on other

5

documents as argument and will rely only on the underlying documents themselves as
evidence.
Finally, I recognize Ms. Mekonnen's Statement of Material Facts contains many
statements not supported by citations to the record, as required by Local Rule 56.1.1 will
deem admitted those facts Ms. Mekonnen has failed to dispute with citations to the record
and strike statements included in her submission that are not supported with citations to
the record, though I will still fully consider "whether the moving party has met its
burden" based on "those facts adequately supported by the record." Paul v. Johnson, 2013
WL 5299399, at *1-2 (D. Mass. Sept. 17, 2013). For the purpose of evaluating OTG's
motion for summary judgment, I will treat these statements as in the nature of argument.
ffl. MOTION FOR SUMMARY JUDGMENT
A. Disability Discrimination
Ms. Mekonnen alleges that OTG failed to provide her with a reasonable accommodation
for her disability and that OTG discriminated against her on the basis of her disability by
issuing her a warning for sitting on a plastic box, by altering her job duties, and
ultimately by terminating her.
I analyze her disparate treatment claims under the Americans with Disabilities Act
("ADA"), 42 U.S.C. § 12101 et seq., and the Massachusetts Antidiscrimination Act,
MASS. GEN. LAWS ch. 15IB ("15IB"), using the McDonnell Douglas burden-shifting
framework. Tobin v. Liberty Mut. Ins. Co. ("Tobin I"). 433 F.3d 100. 104 (1st Cir. 20051
(citing McDonnell Douslas Cory, v. Green, 411 U.S. 792. 93 S.Ct. 1817. 36 L.Ed.2d 668
(1973V). Ms. Mekonnen must first show that:
(1) [s]he suffers from a disability or handicap, as defined by the ADA and Chapter 151B,
that (2) [s]he was nevertheless able to perform the essential functions of [her] job, either
with or without reasonable accommodation, and that (3) [defendant] took an adverse
employment action against [her] because of, 147*147 in whole or in part, [her] protected
disability.
Under both the ADA and 15 IB, a person "is considered disabled if she (a) has a physical
or mental impairment that substantially limits one or more of her major life activities; (b)
has a record of such an impairment; or (c) is regarded as having such an impairment."
Ruiz Rivera v. Pfizer Pharm.. LLC. 521 F.3d 76. 82 (1st Cir. 2008): see also Dahill v.
Police Dep't of Boston. 434 Mass. 233. 748 N.E.2d 956, 962-63 (20011 (identifying
"three avenues by which a person can establish that [s]he falls within the statute's
protection" under state law).
If Ms. Mekonnen establishes a prima facie case of discrimination, the burden shifts to
OTG to articulate a legitimate, nondiscriminatory reason for its employment decision and
.show this was the true_reason for its action. Tobin 1 433 F.3d at 105 (citing..inter_alia,.
McDonnell Douslas. 411 U.S. at 802. 93 87071817). At this point. if~OTG~"o~fters such a

6

reason, the burden shifts back to [Mekonnen], and [s]he must proffer evidence to
establish that [defendant's] non-discriminatory justification is mere pretext, cloaking
discriminatory animus." Id. (citing McDonnell Douelas. 411 U.S. at 804. 93 S.Ct. 1817).
141 "The ultimate burden of proving unlawful discrimination rests at all times with [Ms.
Mekonnen]." Id.
To survive summary judgment for her reasonable accommodation claims under the ADA,
Ms. Mekonnen must show "(1) [s]he is disabled within the meaning of the ADA, (2)
[s]he was able to perform the essential functions of the job with or without a reasonable
accommodation, and (3) [defendant], despite knowing of [her] disability, did not
reasonably accommodate it." Rocafort v. IBM Corp.. 334 F.3d 115. 119 (Tst Cir. 2003).
Similarly, for her reasonable accommodation claims under 15IB, Ms. Mekonnen must
show "[she] was a 'qualified handicapped person' capable of performing the essential
functions of [her] job with reasonable accommodation; [she] requested such
accommodation, and [defendant] refused to provide it; and, as a result of this refusal,
[s]he suffered some harm." Alba v. Raytheon Co., 441 Mass. 836 n.9. 809 N.E.2d 516.
522 n.9 (20043.
1. Exhaustion
Before examining the merits of her claims, I must determine whether Ms. Mekonnen has
adequately pled and previously exhausted all of the theories of disability discrimination
she now advances. Relying in part on the Ethiopian medical certificate I have stricken,
Ms. Mekonnen claims in her opposition to summary judgment to suffer from
osteoarthritis. Ms. Mekonnen had previously relied on her at-work leg injury in January
2008 as the sole basis for her disability claim, both in her administrative charge before
MCAD and in her complaint in this case.
I find Ms. Mekonnen has sufficiently pled disability discrimination based on her
osteoarthritis in her complaint in this court. According to her amended complaint, as
early as August 2007, she had a "leg problem" that was aggravated by OTG's failure to
provide her with an elevated chair and that it was "[bjecause of this and the employer's
failure to accommodate the Sunday off time for worship" that Mr. Ayele wrote the
September 2007 letter to Mr. Khayat. The complaint also mentions how she had one
written warning for sitting while at work because of a preexisting leg problem and later
injury sustained while at work. Even if Ms. Mekonnen previously placed greater
emphasis on her at-work injury, her complaint gave OTG adequate notice of a theory of
disability discrimination based on a preexisting leg problem, even if it did not elaborate
on the source of that problem.
Whether Ms. Mekonnen exhausted administrative remedies for her disability claim based
on her pre-existing knee condition is a closer call. Under both the ADA and 15IB, an
employee must file an administrative charge either with the EEOC or with the parallel
state agency before filing suit. Lattimore v. Polaroid Corp.. 99 F.3d 456. 464 (1st Cir.
1996k see also Thornton v. United Parcel Service. Inc.. 587 F.3d 27. 31 (1st Cir. 2009k _
Because it would frustrate the purpose of the administrative proceedings "if the employee

7

were permitted to allege one thing in the administrative charge and later allege something
entirely different in a subsequent civil action," the scope of any successive lawsuit is
limited to the scope of the administrative charge "and the investigation which can
reasonably be expected to grow out of that charge." Id. When an employee acts pro se, as
Ms. Mekonnen does here, courts construe the administrative charge liberally and "afford
the complainant the benefit of any reasonable doubt," but "[e]ven a pro se complainant is
required to describe the essential nature of the claim and to identify the core facts on
which it rests." Id.
Ms. Mekonnen's administrative charge does not mention her osteoarthritis diagnosis.
Instead, her administrative charge framed her disability claim entirely around the January
' 2008 injury:
On or about January 22, 2008 I had a work-related injury when a sliding door fell on my
leg. I was out of work for eight days due to this injury. Upon my return I requested to be
able to sit when there were no customers around. Respondent failed to accommodate my
request and issued me a warning on June 10, 2008 for sitting when there were no
customers in my line. I also requested a transfer to a delivery position as an
accommodation to my disability but was told delivery positions were only given to male
employees.
In her rebuttal to OTG’s position statement, she again discussed her at-work injury but
did not discuss her osteoarthritis diagnosis. Relying on her administrative charge, the
MCAD investigative disposition examined her disability claim only through the lens of
her at-work injury.m
Ms. Mekonnen's permanent leg problem is one of those "core facts" upon which her
disability discrimination claim may be said to rest; it should have been identified fully in
her administrative charge. Lattimore. 99 F.3d at 464. The investigator would likely have
conducted a very different investigation had she known Ms. Mekonnen was contending
she suffered from a permanent leg problem, in addition to the consequences of a one-time
(and relatively minor) injury, as the charge represented.
Moreover, the osteoarthritis diagnosis was information that was fully within Ms.
Mekonnen's control. She knew she had osteoarthritis and, at least according to her
opposition to summary judgment, she believed she was discriminated against because of
this condition.161 Nothing prevented her, then, from providing this information to the
MCAD in her initial administrative charge.
To be sure, at least the complaint makes clear reference to disability discrimination based
on an injury to Ms. Mekonnen's leg and indicates, albeit obliquely, that Ms. Mekonnen
had sought an accommodation to sit at work as early as September 2007. An investigator
reading Mekonnen's complaint could reasonably be expected to ask why her husband
referred to the Massachusetts right-to-sit law in his September 2007 letter, months before
her January 2008 accident. An investigator could also reasonably be expected to ask the
complainant if she had any other problems with the same leg, which would presumably

8

reveal the osteoarthritis condition, assuming the complainant was forthright during the
process. See Perch v. City of Quincy. 204 F. Supp. 2d 130. 134 (D. Mass. 2002)
(disability discrimination claim based on employee's cancer diagnosis was within the
scope of investigation for disability discrimination claim based on employee's chronic
fatigue syndrome diagnosis).
Because the matter is close, and because I will grant summary judgment for OTG on Ms.
Mekonnen's disability claims on other grounds, I will assume, without deciding, that her
disability claim based on her permanent leg problem were properly exhausted.
2. Timeliness
Even if Ms. Mekonnen had fully exhausted administrative remedies, her disability claims
are, at least in part, time-barred. Under both the ADA and 15IB, an employee is required
to file an administrative claim "within 300 days after the alleged unlawful employment
practice occurred."121 Thornton. 587 F.3d at 31. Ms. Mekonnen filed her administrative
charge on May 10,2010, which means her claims must be premised on acts that occurred
after July 14, 2009. However, at least some 150*150 of the discrete acts on which Ms.
Mekonnen seeks to rely here — her requests in August and September 2007 for an
elevated chair, her request for a transfer to a utility position, and the written warning
issued to Ms. Mekonnen for sitting during her shift — occurred before July 14, 2009 and
individually cannot form the basis of a disability discrimination claim.
I find there is no evidence that Ms. Mekonnen made a specific request to sit while
working after July 14, 2009 that OTG denied. In determining the timeliness of a
reasonable accommodation claim, "[t]he pivotal question ... is whether [the employee]
made a specific request for accommodation that was denied during the statutory periods."
Tobin v. Liberty Mut. Ins. Co. ("Tobin II"), 553 F.3d 121. 133 (1st Cir. 20091. The only
arguably specific requests for an accommodation Ms. Mekonnen made were in August
and September 2007, when she asked Ms. Molla if she could sit in an elevated chair
while she worked and when Mr. Ayele spoke with and wrote to Mr. Khayat on behalf of
Ms. Mekonnen. Any claims based on those requests, or any other requests made before
July 14,2009, are time-barred.
Neither Ms. Mekonnen's affidavit nor Mr. Ayele's affidavit mentions any requests made
on or after July 14, 2009, and Mr. Khayat claimed he was never aware that Ms.
Mekonnen had a medical condition for which she needed an accommodation. In her
opposition to summary judgment, Ms. Mekonnen contends she told Ms. Molla repeatedly
about her medical condition, and in her statement of material facts, she claims to have
asked Ms. Molla and Mr. Khayat for an accommodation at various points in during her
employment. Ms. Mekonnen does not, however, support these contentions with evidence
in die record. It is well-settled that "[f]actual assertions... in motion papers, memoranda,
briefs, or other such 'self-serving' documents, are generally insufficient to establish the
existence of a genuine issue of material fact at summary judgment." Nieves v. Univ. of
P.R.. 1 F.3d 270. 276 n. 9 (1st Cir. 1993). For this reason alone, Ms. Mekonnen fails to
present sufficient evidence to support a timely reasonable accommodation claim.

9

,

Even if I were to consider the unsupported assertions made in her opposition and
statement of material facts as evidentiary, they are insufficient to show that Ms.
Mekonnen made "sufficiently direct and specific" requests to sit while working after July
14, 2009, as required by both the ADA and 151B. Murray v. Warren Pumps, LLC. 821
F.3d 77. 84 fist Cir. 2016k see also Ocean Spray Cranberries. Inc, v. Mass. Comm'n
Asainst Discrimination. 441 Mass. 632. 808 N.E.2d 257. 267-68. 270-71 12004). In
Murray v. Warren Pumps. LLC. the First Circuit found an employee's testimony "that
only broadly suggested] requests for accommodation," such as statements that the
employee "sought breaks from 'time to time,' without detailing any particular occasions
or explaining whether and how [the employer] actually denied any such requests," did not
establish that she made a specific request for an accommodation. 821 F.3d at 84. Ms.
Mekonnen's vague assertions in her opposition and statement of material facts likewise
do not include any information regarding when she made any additional requests or how
OTG responded. There is no failure of reasonable accommodation claim arising from
OTG's alleged failure to provide her with a seat after July 14, 2009 sufficiently presented
by record evidence. This aspect of her disability discrimination claim is thus time-barred.
Ms. Mekonnen's reasonable accommodation claim based on her request to transfer to a
utility position faces similar problems. 151*151 She presents no cognizable evidence that
she requested this kind of transfer after July 14, 2009. In her opposition to summary
judgment, she claims she requested a transfer "not only in 2008 when I had leg injury but
until 2-3 months before I was fired" and that she "repeatedly sought that position ...
because it was better than working by standing due to my leg injury." Again, Ms.
Mekonnen's factual assertions in her memorandum are insufficient to create a triable
issue of fact. Nieves. 7 F.3d at 276 n. 9. Without any admissible evidence of requests
after July 14, 2009,1 find her request to transfer accommodation claims time-barred. For
the sake of completeness, I will discuss, and reject, the claims on the merits below.
OTG does not dispute that Mekonnen's disability claim based on her termination on
November 19, 2009 is timely. In addition to advancing this specific claim, Ms.
Mekonnen attempts to rely on the continuing violations doctrine to save her otherwise
untimely claims. The continuing violations doctrine allows an employee to "obtain
recovery for discriminatory acts that otherwise would be time-barred so long as a related
act fell within the limitations period." Tobin II 553 F.3d at 130. "However, it is now well
established that the doctrine does not apply to 'discrete acts’ of alleged discrimination that
occur on a 'particular day,' but only to discriminatory conduct that takes place 'over a
series of days or perhaps years.'" Id. (quoting National R.R. Passenger Corp. v. Morsan.
536 U.S. 101. 115. 122 S.Ct. 2061. 153 L.Ed.2d 106 (2002D: see also Everett v. 357
Corp.. 453 Mass. 585.904 N.E.2d 733.751 (20091 ("[A] discrete, separate act... does not
draw other allegedly discriminatory acts into its scope, either prospectively or
retrospectively.").
The continuing violations doctrine does not apply to the acts underlying Mekonnen's
disability claims. Denying a request for a reasonable accommodation, denying a transfer
request, and issuing a written warning are all discrete acts that occur on a particular day.
Tobin II. 553 F.3d at 130: see also Avala v. Shinseki. 780 F.3d 52. 57 list Cir. 20151

10

("[A] negative performance evaluation, transfer to another area, and letter of warning also
constitute discrete acts.").
Though any disability discrimination claims based on the June 10, 2008 written warning
for sitting while working and the May 19, 2009 written warning for failing to check
expiration dates are time-barred, I may consider these acts "'as background evidence in
support of a timely claim'" for wrongful termination. Tobin II. 553 F.3d at 142 (quoting
Morgan. 536 U.S. at 113. 122 S.Ct. 2061). However, because any consideration of the
claims Ms. Mekonnen has advanced in conjunction with her wrongful termination claim
— whether for reasonable accommodation or for disparate treatment — begins with an
examination of whether she is disabled or handicapped, I will address that question first
before proceeding.
3. Disabled or Handicapped Under the ADA or 151B
The ADA and 15IB both use the same three-part test to determine whether an
impairment qualifies as a disability or a handicap, with one slight difference. RamosEchevarria v. Pichis. Inc.. 659 F.3d 182. 187 (1st Cir. 2011): City of New' Bedford v.
Mass. Comm'n Against Discrimination. 440 Mass. 450. 799 N.E.2d 578. 588 n. 27 (2003J
(holding that "[the SJC] has not previously articulated this three-step analysis for
resolution of the first part of the first prong of claims of handicap discrimination..." and
that "[it] see[s] no reason to deviate from Federal law in this respect." (internal citations
omitted)).
First, I consider whether the alleged condition "constitutes a mental or physical
'impairment.'" Carroll v. Xerox Corp„ 294 F.3d 231. 238 (1st Cir. 2002). Second, I
"identify the life activities upon which [plaintiff] relies to determine whether they
constitute 'major life activities.’ ... that is, activities that are 'of central importance to
daily life.’"121 Id. (internal citations omitted). Finally, I determine "whether the impairment
substantially limits the activity found to be a major life activity." Id.
For many years, "the definitions of 'disability' and 'handicap' [were] virtually identical"
under the ADA and 15 IB. Whitney v. Greenberg. Rosenblatt. Kull & Bitsoli. P.C.. 258
F.3d 30. 32 n. 1 fist Cir. 2001T However, the ADA Amendments Act of 2008
("ADAAA"), Pub. L. No. 110-325,122 Stat. 3553, 3553-55 (2008), codified in 42 U.S.C.
§ 12101 et seq., which became effective on January 1, 2009, "expanded the definition of
'disability'" under the ADA. Thornton. 587 F.3d at 34 n. 3. In particular, the ADA now
"provides that '[t]he term 'substantially limits' shall be interpreted consistently with the
finding and purposes of the ADA Amendments Act of 2008." Murray v. Warren Pumps,
LLC. 2013 WL 5202693, at *5 (D. Mass. Sept. 12, 2013), affd, 821 F.3d 77 (1st Cir.
2016) (modifications in original). Because 15IB "does not have an analogous clause," I
have previously held that 15IB employs a narrower, pre-ADAAA understanding of the
term "substantially limits." Id. at *5-6.
The only timely ADA claims concern conduct that occurred after July-14,-2009-1.will
therefore use the ADAAA's more generous standard to evaluate Ms. Mekonnen's federal

11

claims. Moreover, because it is no longer as clear whether the Supreme Judicial Court
will continue to read 15IB in a more narrow fashion, I will, out of an abundance of
caution, apply the AD AAA's standard to Ms. Mekonnen's state law claim as well.121
As discussed above, Ms. Mekonnen has, at times, identified two different conditions from
which she suffers. First, she claimed to suffer consequences from the January 2008 leg
injury. Second, she claimed to suffer from osteoarthritis in the same leg, a condition
which was aggravated by the January 2008 accident. In her opposition to summary
judgment and accompanying affidavit, she disavows reliance on the January 2008 leg
injury as her alleged disability and focuses solely on her osteoarthritis condition. For the
sake of completeness, I will address both conditions.
a. January 2008 Leg Injury
Assuming, without deciding, that Ms. Mekonnen has satisfied the first two parts of the
test, I find she has failed to show that her January 2008 leg injury itself substantially
limited her ability to stand or work. Ms. Mekonnen stated at her deposition that she
returned to work two weeks after the accident and continued working full time. She
sought medical attention for her injury twice in the immediate aftermath of her accident.
Both times, she was advised not to work for a few days, but was given no other
restrictions. The medical record from her January 22, 2008 visit explains that her
contusion and sprain should heal in a few weeks and that she should treat her pain with
ice and ibuprofen. It made no mention of the need for any long-term adjustments to her
work schedule or working conditions.
According to her affidavit, Ms. Mekonnen views the January 2008 leg injury not as a
disability from which she continues to suffer but as a byproduct of her osteoarthritis. She
stated that "the fallen object on my knee was not the case [sic] of my permanent disability
resulting from a bone disease aka medically known as 'osteoarthritis'" and that "the injury
was permanent from the bone disease and not because of a wooden door that was fallen
on my leg while working for OTG." (emphasis in original).
The January 2008 leg injury did not, in and of itself, substantially limit her ability to
stand or work. The medical records suggest the injury was, at most, a relatively minor
and temporary condition from which Ms. Mekonnen would recover in a few weeks.
Indeed, this characterization of the injury is, in part, confirmed by her return to full-time
work two weeks later. Even under a liberal definition, her January 2008 injury would not
qualify as a disability or handicap under either the ADAAA or state law because there is
no evidence that the injury substantially limited her ability to stand or work for any
period of time longer than a couple weeks. Murray, 2013 WL 5202693, at *5-6.
Indeed, Ms. Mekonnen herself no longer claims the injury alone limited her ability to
stand or work. Rather, according to her affidavit, the injury aggravated her preexisting leg
problem, which in turn prevented her from standing after she returned to work. Her
disability or handicap can be understood only as the broader condition of a leg problem

12

due to osteoarthritis, exacerbated by but largely independent of the January 2008
accident.
b. Osteoarthritis
Ms. Mekonnen's leg problem due to osteoarthritis may qualify as a disability or handicap
under the ADA and 15IB. Ms. Mekonnen stated in her affidavit that she suffered from
osteoarthritis and that her condition made it difficult for her to stand, especially after the
January 2008 accident. Although I have struck the submission, I note an Ethiopian
medical certificate referenced by Ms. Mekonnen declared that, as of 2007, she was
suffering from osteoarthritis of the right knee joint. Her osteoarthritis constitutes a
physical impairment, Cf. Benoit v. Tech. Mfe. Cow., 331 F.3d 166. 172. 176 (1st Cir.
20031 (employee's "low back strain and strain of the knees with possible early
osteoarthritis" constituted physical impairment), and the ADA now provides that both
standing and working 154*154 qualify as major life activities. 42 U.S.C. § 12102(2)(A).
But, Ms. Mekonnen has failed to present sufficient evidence to show that her leg problem
substantially limited her ability to work. The undisputed evidence shows she was
working a full schedule prior to her injury, she was back at work on her usual schedule
two weeks after the January 2008 accident, and worked full-time until she was terminated
more than a year later. The doctor's notes she received after her accident advised her to
remain out of work for only a few days. Her leg problem, of whatever etiology, either as
it existed before January 2008 or as it was after the accident, does not appear to have
substantially limited her ability to work.
Even if I were to consider the Ethiopian medical certificate, which declared Ms.
Mekonnen "unfit for any work" as of 2007, it would not provide sufficient evidence for
Ms. Mekonnen to survive summary judgment on this theory, especially because the
record is clear that Ms. Mekonnen was able to, and did in fact, work after receiving this
diagnosis. See Williams v. Kennedy. 38 F. Supp. 3d 186.194 (P. Mass. 2014) ("Although
the ADAAA counsels a court to broaden its view of what constitutes a disability, no
authority suggests that the ADAAA was intended to supplant the requirements of FED.
R. CIV. P. 56."); see also Weaving v. City of Hillsboro. 163 F.3d 1106. 1112 (9th Cir.
20141 (finding that, under ADAAA standard, "[t]he record does not contain substantial
evidence showing that [plaintiff] was limited in his ability to work compared to 'most
people in the general population'" (quoting 29 C.F.R. § 1630.2(j)(l)(ii))).
The evidence of substantial limitations on her ability to stand is also thin. In her affidavit,
Ms. Mekonnen stated that she "was unable to stand for extended hours and [was]
compelled to sit when the job was slow and no customer was not [sic] around." Such a
declaration certainly would not have been sufficient to show a disability under the
narrower, pre-ADAAA standard for disability or handicap that Massachusetts still
appears to employ. See Ramos-Echevarria. 659 F.3d at 188-90. That declaration is also
likely insufficient under the more permissive ADAAA standard. Williams. 38 F. Supp. 3d
at 194-95. However, because Ms. Mekonnen's condition "does not clearly fall outside the
range of disability under the ADAAA" and because "'the threshold issue of whether an

13

b'ii

impairment 'substantially limits' a major life activity should not demand extensive
analysis,"’ Murray, 2013 WL 5202693, at *8 (quoting C.F.R. § 1630.2(j)(l)(iii)), I will
not grant summary judgment on this ground.
C- Regarded As
Finally, Ms. Mekonnen has, at times, appeared to allege that OTG regarded her as being
disabled and discriminated against her based on this perception. Before the ADAAA, a
plaintiff bringing a "regarded as" disabled claim had to show either "'(1) a covered entity
mistakenly believes that a person has a physical impairment that substantially limits one
or more major life activities, or (2) a covered entity mistakenly believes that an actual,
nonlimiting impairment substantially limits one or more major life activities."' RuizRivera. 521 F.3d at 83 (quoting Sullivan v. Neiman Marcus Grp.. Inc.. 358 F.3d 110. 117
fist Cir. 2004')'). "After the enactment of the ADAAA, however, a plaintiff bringing a
'regarded as' claim under the ADA needs to plead and prove only that she was regarded
as having a physical or mental impairment." Mercado v. Puerto Rico. 814 F.3d 581, 588
(1st Cir. 2016').
Ms. Mekonnen cannot bring a failure to accommodate claim under the theory that she
was "regarded as disabled," 42 U.S.C. 155*155 § 12201(h) (referencing 42 U.S.C. §
12102(1)(C)), so I do not examine her transfer request claims under a "regarded as"
disabled theory. Beyond a section heading referring to "[pjlaintiffs perceived disability
and/or impairment," Ms. Mekonnen does not discuss her "regarded as" claim in her
opposition to summary judgment. For the sake of completeness, however, I will consider
Ms. Mekonnen's termination claim under a regarded as disabled theory as well.
OTG does not dispute that Ms. Mekonnen was able to perform the essential functions of
her job with or without a reasonable accommodation. I will proceed to evaluate the
remaining issues pertaining to her reasonable accommodation and disparate treatment
claims separately.
4. Reasonable Accommodation
Ms. Ms. Mekonnen has failed to establish that transferring her to a utility position would
be a reasonable accommodation. It is well-settled that "a plaintiff must show, even at the
summary-judgment stage, that the requested accommodation is facially reasonable."
Echevarria v. AstraZeneca Pharm. LP. 856 F.3d 119. 128 (1st Cir. 2017). To meet this
burden, "a plaintiff needs to show not only that the proposed accommodation would
enable her to perform the essential functions of her job, but also that, at least on the face
of things, it is feasible for the employer under the circumstances." Reed v. LePase
Bakeries, Inc.. 244 F.3d 254.259 (1st Cir. 2001).
Ms. Mekonnen does not demonstrate how a transfer to a utility position would have been
an accommodation for her particular disability or handicap. The contrary appears to be
the case. Employees in utility positions have to carry products from the storage room to
the storefront, stock shelves, and clean the store. According to Mr. Khayat, utility

14

positions "are significantly more physically[ ] demanding than the Cashier positions at
OTG." Employees in utility positions "spend a majority of their shifts on their feet
walking, carrying and/or delivering products to various OTG locations throughout the
airport." Ms. Mekonnen does not dispute this description of a utility worker's duties.
Indeed, she submitted affidavits from two former utility workers, who both characterize
their duties in a similar manner.
There is, in short, no evidence demonstrating that a transfer to this position would have
relieved Ms. Mekonnen from standing. In order to perform the essential functions of a
utility worker, she would have had to be on her feet carrying products out to the
storefront and inspecting products throughout the store. In her own affidavit, Ms.
Mekonnen described how she was asked once to climb a stool to inspect the expiration
dates in the dairy fridge, but she "was unable to do so" because she "can not stand on
floor for extended time let alone on stool that require balancing oneself and keep from
falling." (emphasis in original). Even if she were relieved from having to inspect higher
shelves, Ms. Mekonnen would still have to stand on the floor for extended periods of
time to perform the tasks of a utility worker.
Because a transfer to a utility position would not enable her to perform the essential
functions of her job, I find that it would not have been a reasonable accommodation.
Reed. 244 F.3d at 259: see also Brvant v. Caritas Norwood Hosp.. 345 F. Supp. 2d 155.
170 (P. Mass. 2004) (employee's proposed accommodation of working in a position that
included lifting and moving patients as essential functions was not reasonable because
employee's disability limited her ability to lift). Having failed to 156*156 identify a
reasonable alternative accommodation,^ Ms. Mekonnen's accommodation claim fails.
5. Disparate Treatment
Assuming for present purposes that Ms. Mekonnen can establish the first two parts of her
prima facie case of disability discrimination as to her termination, I turn to the final part:
whether she has shown that OTG terminated her "because of, in whole or in part," her
disability or handicap. Tobin I. 433 F.3d at 104. Again, though inadequately supported, at
this stage, I will assume that Ms. Mekonnen has met that burden. One of the written
warnings Ms. Mekonnen received, and the only warning that bears Ms. Mekonnen's
signature, was for sitting while working. If she had to sit because of her disability, Ms.
Mekonnen would, in effect, have been disciplined for seeking out her own
accommodation for her disability after her earlier requests had been denied. If she was
terminated in part because of the warning, then arguably she would have been terminated
in part because she was disabled.
My inquiry does not end there. Instead, the burden shifts to OTG, which has articulated a
legitimate, nondiscriminatory reason for terminating Ms. Mekonnen: Ms. Mekonnen was
terminated because of her consistently poor job performance. Ms. Mekonnen received
three failing secret shopper reports, which included allegations of poor customer service.
OTG warned Ms. Mekonnen that if her performance did not improve, she would be
terminated. Poor work performance, of course, qualifies as a legitimate,

15

9

nondiscriminatory reason for termination. See Izzo v. Genesco. Inc., 171 F. Supp. 3d 1. 8
(D. Mass. 2016).
At the final step of this inquiry, I conclude Ms. Mekonnen has not met her burden to
show that OTG's reason is pretextual. She attempts to show pretext by arguing she was,
in fact, performing her job well. She points to one early positive secret shopper report and
to the additional training she did after work to improve her customer service skills. She
also attempts to introduce evidence, including the cell phone records which I have
already stricken, to dispute the accuracy of the other secret shopper reports.
Ms. Mekonnen cannot meet her burden of showing pretext "simply by questioning
[OTG's] articulated reason" or by demonstrating that OTG was wrong to believe she was
not performing her job well. Gadson v. Concord Hosp.. 966 F.2d 32. 35 (1st Cir. 1992k
see also Lawton v. State Mut. Life Assurance Co. of Am.. 924 F. Supp. 331. 345 (D.
Mass. 1996) ("Evidence of mistaken good-faith belief... fails to suffice as evidence of
pretext."); Sullivan v. Liberty Mut. Ins. Co.. 444 Mass. 34. 825 N.E.2d 522. 541-42
(2005! ("[0]ur task is not to evaluate the soundness of [the employer's] decision making,
but to ensure it does not mask discriminatory animus."). As then-Judge Gorsuch wrote for
the Tenth Circuit:
That individuals and companies sometimes make employment decisions that prove to be
bad ones in hindsight usually suggests no more than that—that they got it wrong. To
support an inference of pretext, to suggest that something more nefarious might be at
play, a plaintiff must produce evidence that the employer did more than get it wrong. He
or she must come forward with evidence 157*157 that the employer didn't really believe
its proffered reasons for action and thus may have been pursuing a hidden discriminatory
agenda.
Johnson v. Weld Ctv.. Colo.. 594 F.3d 1202.1211 (10th Cir. 201 Of
Even if OTG was mistaken in its evaluation of Ms. Mekonnen's work performance, and
even if her belatedly proffered cell phone records indicate that the secret shopper reports
or other customer complaints were inaccurate, she has submitted no evidence to show
that OTG believed they were inaccurate or that OTG's true motivation for terminating her
was otherwise discriminatory.
Nor does the warning she received for sitting while working create a genuine issue of
material fact regarding pretext. She received the warning over a year before she was
terminated and was subject to negative reviews and discipline several times between the
warning and her termination, none of which related to her sitting while working. The
warning alone does not "refute the clear evidence put forward" by OTG "showing that it
was poor [job performance], and not disability, that constituted the real reason for [Ms.
Mekonnen's] termination." Tobin I. 433 F.3d at 105. Because she has proffered no
evidence that her leg problem played a role in OTG's decision to terminate her, Ms.
Mekonnen cannot successfully oppose summary judgment for OTG as to her disability
discrimination claim under either federal or state law.

16

t*'fi

B. Religious Discrimination
Ms. Mekonnen claims OTG's failure to accommodate her request for Sunday mornings
off constituted religious discrimination in violation of Title VII of the Civil Rights Act
("Title VII"), 42 U.S.C. § 2000e et seq., and 151B. The First Circuit uses a two-part
framework to evaluate religious discrimination claims alleging a failure to accommodate
under both state and federal law. Cloutier v. Costco Wholesale Corp., 390 F.3d 126. 133
(1st Cir. 20041. "First, the plaintiff must make her prima facie case that a bona fide
religious practice conflicts with an employment requirement and was the reason for the
adverse employment action." Id. If the plaintiff makes this showing, "the burden then
shifts to the employer to show that it offered a reasonable accommodation or, if it did not
offer an accommodation, that doing so would have resulted in undue hardship." Id.
Chapter 15 IB uses a similar framework to evaluate failure to accommodate claims.
Under 15IB, "[t]he employee bears the initial burden of establishing a prima facie case
that the employer required the employee to violate a required religious practice" and
"'that he or she gave the employer the required notice of the religious obligations.'"
Brown v. F.L. Roberts & Co.. Inc., 452 Mass. 674. 896 N.E.2d 1279. 1283 (20081
(quoting N.Y. & Mass. Motor Serv.. Inc, v. Mass. Comm'n Asainst Discrimination. 401
Mass. 566. 517N.E.2d 1270. 1276 (1988)). "If the employee makes this prima facie case,
the burden then shifts to the employer 'to prove that accommodation of the [employee's]
religious obligations would impose... an undue hardship' pursuant to the statute." Id.
(modifications in original) (quoting N.Y. & Mass. Motor Serv.. Inc.. 517 N.E.2d at 12761.
1. Timeliness
Ms. Mekonnen's religious discrimination claims based on accommodations she sought in
2007, 2008, or any other date before July 14, 2009 are time-barred. As discussed above,
the denial of a request for accommodation "'is a discrete discriminatory act triggering the
statutory limitations 158*158 period.'" Tobin II. 553 F.3d at 129 (quoting Ocean Spray
Cranberries. Inc., 808 N.E.2d at 268k see also Elmenaver v. ABF Freight Svs.. Inc., 318
F.3d 130. 134-35 (2d Cir. 20031 ("[A]n employer's rejection of an employee's proposed
accommodation for religious practices does not give rise to a continuing violation ...
[and] is the sort of 'discrete act' that must be subject of a complaint to the EEOC within
300 days."). Even if Ms. Mekonnen did not receive a clear response from OTG regarding
her request, the fact that OTG allegedly continued to schedule her on Sundays in 2007
and 2008 meant she "'knew or reasonably should have been aware that the employer was
unlikely to afford [her] a reasonable accommodation."’ Tobin II. 553 F.3d at 133 n. 10
(quoting Ocean Svrav Cranberries. Inc.. 808 N.E.2d at 2681.
I find any religious discrimination claims based on denied requests for Sundays off
before July 14, 2009 to be time-barred. I will, however, consider these earlier requests as
background evidence when evaluating her claims based on requests made on or after July
14,2009.
2. Prima Facie Case Under Title VII and 151B

17

Ms. Mekonnen cannot establish a prima facie case of religious discrimination under
either Title VII or 15IB because she has not shown she was, in fact, required to work
Sunday mornings after July 14,2009. OTG has submitted Ms. Mekonnen's schedule from
February 1, 2009 to November 20, 2009 as part of the summary judgment record and it
does not show her scheduled for any Sunday shifts. With her opposition to summary
judgment, Ms. Mekonnen submitted a document in which she compares her biweekly
wage from February 2009 to November 2009 to the schedule OTG submitted and
concludes she worked more hours than those listed on her schedule. According to Ms.
Mekonnen, she must have worked these extra hours on Saturdays and Sundays.1111
For the purpose of evaluating the present motion, I will accept Ms. Mekonnen's assertion
that, had she worked the number of hours listed on her schedule, she would be entitled to
a biweekly wage of $675.00. Starting with the pay period that ran from July 6, 2009 to
July 19, 2009 until she was terminated in November 2009, Ms. Mekonnen received
eleven pay checks. Of the eleven, nine were for more than $675.00; one, for the pay
period running from September 7, 2009 to September 20, 2009, was for $309.06; and one
was for $343.35, representing a one week pay period.1121
Of those nine pay checks for more than $675.00, seven are for less than $693.00,
meaning in those seven pay periods, Ms. Mekonnen worked at most an extra two hours,
1121 while the check for $343.35 for the one week pay period indicates she worked no
more than one extra hour. Taken together, then, these ten checks do not support Ms.
Mekonnen's assertion that she was forced to take on multiple extra shifts. Rather, they
show her occasionally working 159*159 a little beyond her regularly scheduled seven
and a half hour days, and add up to no more than two additional hours over each two
week period.
The two pay checks that show Ms. Mekonnen working more than two extra hours still do
not establish that Ms. Mekonnen worked Sunday mornings after July 14, 2009. Ms.
Mekonnen received a check for $736.47 for the pay period ending on August 2, 2009,
which results in $61.47 above the expected amount, and a check for $726.84 for the pay
period ending on September 6,2009, which results in $51.84 above the expected amount.
Neither suggests that Ms. Mekonnen worked a complete extra shift. Instead, Ms.
Mekonnen worked approximately an extra seven hours during the August 2, 2009 pay
period and an extra six hours during the September 6,2009 pay period.
Moreover, even if Ms. Mekonnen could show she had worked a full extra shift during
these two pay periods, she cannot show that the extra shift was on a Sunday morning. Ms.
Mekonnen herself concluded that these earning statements merely establish that "plaintiff
had worked extra hours other than the M-F, 5:00am-1:00pm work shift/schedule on
Saturdays and Sundays." Working on Saturday would not have interfered with her church
services. In fact, based on Ms. Mekonnen's affidavit, even working the Sunday afternoon
and evening shift would not have interfered with her church services. She stated that she
requested in her employment application "to have time off on Sundays, (not necessarily
the 'whole' Sunday but for sufficient time to worship in the moming and to work in the
afternoon)."

18

Finding no demonstration in the evidence of record Ms. Mekonnen was forced to work
Sunday mornings after July 14, 2009,1 will grant summary judgment to OTG as to her
religious discrimination claims.
C. Sex Discrimination
Ms. Mekonnen contends she was denied a transfer to a utility position and she was
terminated because of her gender. As with her claim for disability discrimination, I use
the McDonnell Douglas framework to evaluate her gender discrimination claims under
Title VII and 151B. Douglas v. J.C. Penney Co.. Inc.. 474 F.3d 10. 13-14 fist Cir. 20071
(citing, inter alia, McDonnell Douslas Corp. 411 U.S. at 802. 93 S.Ct. 18171. IHl
1. Denial of Transfer
To the extent Ms. Mekonnen bases her gender discrimination claims on requests for
transfer to a utility position made before July 14, 2009, those claims are time-barred. As
discussed previously, a denial of transfer request is a discrete act to which the continuing
violations doctrine does not apply. Morgan. 536 U.S. at 114.122 S.Ct. 2061.
Ms. Mekonnen presents no admissible evidence that she requested a transfer to a utility
position and was denied such a transfer, whether because of her gender or for any other
reason, after July 14, 2009. In her opposition to summary judgment, she claims for the
first time that she requested a transfer two or three months before she was fired and that
her request was denied because her supervisor told her the job was for men only. She
cites no record evidence to support this assertion. 160*160 Her complaint in this court
refers only to a request for transfer made "soon after" Ms. Mekonnen received the June
10,2008 written warning for sitting on a plastic box while working.
Because Ms. Mekonnen fails to support her gender discrimination claim with admissible
evidence that she was denied a transfer after July 14,2009, see Nieves. 7 F.3d at 276 n. 9.
I will grant summary judgment on the grounds that all of her request for transfer claims
are time-barred.
Considering Ms. Mekonnen's request for transfer claims on the merits, I am separately
obligated to grant summary judgment for OTG. In order to establish a prima facie case of
gender discrimination, Ms. Mekonnen must show that OTG took an adverse employment
action against her. To be sure, the denial of a request for transfer can constitute an
adverse employment action under some circumstances. Gorski v. N.H. Dep't of
Corrections. 290 F.3d 466. 475 (1st Cir. 20021 ("[I]n an appropriate case the denial of a
request for a transfer may be sufficiently harmful to amount to an adverse employment
action."(citing Randlett v. Shalala. 118 F.3d 857. 862 (1st Cir. 19971T). Even so, a
plaintiff must present some evidence explaining how she was harmed by the denial of a
transfer. Gorski. 290 F.3d at 475: see also Marrero v. Gova of P.R.. Inc.. 304 F,3d 7. 24
(1st Cir. 20021 ("[A] minor increase in work responsibilities is not enough to render a
lateral transfer materially adverse.").

19

W

Here, Ms. Mekonnen provides no evidence explaining how the denial of her request for a
transfer to a utility position was an adverse employment action. She does not, for
example, demonstrate there was a difference in compensation, hours, or benefits between
the two positions. Although she contends she wanted the transfer as an accommodation
for her leg injury, as I have discussed previously, she does not explain how a utility
position would have improved her working conditions. If anything, it appears from the
record that Ms. Mekonnen would have been unable, as a result of her injury, to perform
the basic responsibilities of that position. Ms. Mekonnen's transfer request claim thus
cannot proceed on this record.
2. Termination
Even assuming that Ms. Mekonnen has made a prima facie case of gender discrimination
for her termination claims. Moving to the second step, OTG has provided a legitimate,
nondiscriminatory reason for terminating her. As discussed above in conjunction with her
disability discrimination claims, OTG has submitted sufficient evidence to show it
believed Ms. Mekonnen was not performing her job well and was not following OTG
policies regarding cell phone use during work.
Ms. Mekonnen fails to show OTG's reason for terminating her was pretextual. Again, Ms.
Mekonnen's attempts to undermine the veracity of the secret shopper reports or reports of
her cell phone use are insufficient under these circumstances to prove OTG acted with
discriminatory animus. See Gadson. 966 F.2d at 35: Sullivan, 825 N.E.2d at 541-42.
Ms. Mekonnen also attempts to show pretext by pointing to similarly-situated male
employees, who she contends were treated differently. In order to make a meaningful
comparison, Ms. Mekonnen must identify male employees who "closely resemble" her
"in respect to relevant facts and circumstances." Conwardv. Cambridge Sch. Comm., 171
F.3d 12.20 Cist Cir. 1999). She has failed to do so.
Ms. Mekonnen suggests two comparators: Mulugeta Gifaw and Joseph Temesgen. Mr.
Gifaw was a cashier who worked 161*161 for OTG in Logan Airport from November
2006 to March 2008. He received several warnings for violating company policies,
including a reprimand for sitting while working, and was suspended by OTG. After
receiving a final warning, Mr. Gifaw threw his employee badge at Mr. Khayat and told
him he quit. Mr. Khayat accepted Mr. Gifaw's resignation but noted on his separation
notice that Mr. Gifaw was also terminated.
It is unclear how Ms. Mekonnen was treated differently than Mr. Gifaw. Both were
subject to multiple warnings because their work was below OTG's standards, both were
subject to escalating measures of discipline, and both were eventually terminated. The
mere fact that Mr. Gifaw asserted greater agency over the timing and manner of his
termination is not sufficient to raise the inference that Ms. Mekonnen was treated worse
than he.

20

Even if Ms. Mekonnen could show that Mr. Gifaw was given a longer leash before being
terminated, there is a key difference between Mr. Gifaw's and Ms. Mekonnen's
circumstances: only Ms. Mekonnen received three secret shopper reports with scores
below 70%. OTG contends that its regular practice was to terminate employees who
received three secret shopper reports with scores below 70% and Ms. Mekonnen has
submitted no evidence to dispute this. I find the three failing secret shopper report scores
justifies any purported difference in treatment between Ms. Mekonnen and Mr. Gifaw.
Perkins v. Brigham & Women's Hosv.. 78 F.3d 747. 751 (1st Cir. 1996") (finding
comparator not sufficiently similar because plaintiff had a "history of repeated
disciplinary actions" while comparator did not).
Mr. Temesgen is no more helpful to Ms. Mekonnen's case. Mr. Temesgen was also a
cashier who worked with Ms. Mekonnen at OTG. Mr. Temesgen did not receive three
secret shopper reports with scores below 70%. In fact, of the six secret shopper reports
for Mr. Temesgen that Ms. Mekonnen submitted, all but one were above 70%. Moreover,
Mr. Temesgen was never subject to any warnings or other disciplinary actions while
working at OTG.
Assuming Ms. Mekonnen could show she was disciplined differently than Mr. Temesgen
for using a cell phone at work, their employment histories, and not their genders,
adequately explains the difference in treatment.1151 After she received a written warning in
May 2009 for failing to check an expiration date on a product, Ms. Mekonnen was told
that further infractions would result in her termination. In contrast, Mr. Temesgen had
never received a written warning. If he were found to be on his cell phone during work,
he would presumably have been subject to the same escalating series of warnings Ms.
Mekonnen had already received by the time she was terminated in November 2009.
Under these circumstances, I cannot find Mr. Temesgen to be a similarly situated
employee.
Ms. Mekonnen can point to no evidence to suggest that OTG's proffered reason for her
termination — that she performed poorly at her job — was pretextual. Even if OTG did
not permit her to take timely breaks and did not give her the proper money to make
change during her shift — all facts that OTG disputes — Ms. Mekonnen 162*162 points
to no evidence showing that OTG took any these actions because of her gender. These
allegations are insufficient to undercut OTG's legitimate, nondiscriminatory reason for
terminating Ms. Mekonnen.
D. Retaliation
Without citing a particular statute, Ms. Mekonnen claims OTG retaliated against her for
filing an internal written complaint in 2007 and for making subsequent oral complaints to
OTG's management. I will assume Ms. Mekonnen seeks to recover under the anti­
retaliation provisions of the ADA, Title VII, and 15 IB.
As with her other claims, to the extent Ms. Mekonnen claims OTG retaliated against her
before July 14. 2009. her claims are time-barred. Velazauez-Perez v. Developers

21

Diversified Realty Corp., 753 F.3d 265. 276 (1st Cir. 2014’) (referencing the timeliness
requirements for retaliation claims under Title VII); Crevier v. Town of Spencer, 600 F.
Sudd. 2d 242. 258 (D. Mass. 2008') ("[T]he plaintiffs action alleging unlawful retaliation
in violation of the ADA or chapter 15IB must be brought within three years of the
alleged retaliatory event."). I will consider retaliatory acts alleged to have occurred after
July 14, 2009, namely her termination, the withholding of her vacation pay, and the other
assorted conduct mentioned by Ms. Mekonnen in her opposition to summary judgment.
To establish a prima facie case of retaliation under the ADA, Title VII, and 15 IB, Ms.
Mekonnen must show "(1) that she engaged in protected activity, (2) that she suffered an
adverse employment action, and (3) that there was a causal connection between the
protected activity and the adverse employment action." Crevier, 600 F. Supp. 2d at 25960. If Ms. Mekonnen were to make this showing, the burden shifts to OTG "to articulate
a legitimate, nonretaliatory reason for its employment decision." Wright v. CompUSA,
Inc.. 352 F.3d 472. 478 (1st Cir. 20031 (internal quotations and citations omitted). Once
OTG articulates a reason, Ms. Mekonnen must show the proffered reason is mere pretext.
Id.
Assuming Ms. Mekonnen could make a prima facie showing of retaliation, she again
fails to show that OTG's proffered reason for terminating her was mere pretext, for the
same reasons I have discussed previously. Based on the secret shopper reports, as well as
OTG's own observations of her performance, OTG determined that Ms. Mekonnen did
not meet its standards for customer service. In response, Ms. Mekonnen mostly rehashes
the mistreatment she claims she experienced while working at OTG, without pointing to
evidence that would show OTG's true reason for termination was retaliation. Sekamate v.
Newton Wellesley Hosp., 2002 WL 31194873, at *12 (D. Mass. Sept. 3, 2002) (granting
summary judgment for employer on retaliation claim under ADA, Title VII, and 15IB
because "[pjlaintiff relies purely on speculation to connect his complaints about
discrimination to the disciplinary action and his ultimate termination").
I also find Ms. Mekonnen has failed to show OTG's proffered reason for withholding her
vacation pay was pretextual. It was OTG's written policy not to pay terminated workers
their accrued vacation benefits. OTG's employee manual states that "[tjerminated
employees forfeit their accrued vacation days." As I will discuss in the following section,
this policy may run afoul of the Massachusetts Wage Act, see generally, Elec. Data. Svs.
Corp. v. Attorney Gen., 454 Mass. 63. 907 N.E.2d 635 120091. but otherwise appears
facially neutral. 163*163 Moreover, Ms. Mekonnen has failed to show that OTG applied
the policy in a selective and retaliatory manner. Without evidence indicating that OTG
acted with retaliatory intent, OTG's policy — while undoubtedly problematic under state
law — provides a nonretaliatory reason for withholding Ms. Mekonnen's vacation pay.
See, e.g, Gembus v. MetroHealth Sys., 2007 WL 642075, at *7 (N.D. Ohio Feb. 27,
2007), affd, 290 F. App'x 842 (6th Cir. 20081 ("[I]t is not enough for Gembus to opine
that MetroHealth's policy was illegal under the FLSA, as she must present evidence that
she was terminated for discriminatory or retaliatory reasons and not because she violated
another policy that allegedly offends a wholly different statute."); see also Hazen Paper___
Co. v. Biggins, 507 U.S. 6047~6T2rH3~S.(Jt. 1701. 123 L.Hcll2d~378 (1993TTTllt cannot

22

#

be true that an employer who fires an older black worker because the worker is black
thereby violates the ADEA. The employee's race is an improper reason, but it is improper
under Title VII, not the ADEA.").
Finally, the assorted acts mentioned by Ms. Mekonnen in her opposition are not acts of
retaliation, but are plainly the "petty slights or minor annoyances that often take place at
work and that all employees experience." Burlington Northern & Santa Fe Rv. Co. v.
White. 548 U.S. 53. 68. 126 S.Ct. 2405. 165 L.Ed.2d 345 (2006). Her issues with her
lunch break and coverage at the cash register, as well the other "reprehensible instances"
she references are typical workplace complaints that Ms. Mekonnen has failed to link to
retaliatory animus on the part of OTG.
E. Violation ofMassachusetts Wage Act
Finally, though her discrimination claims fail, Ms. Mekonnen is entitled to at least some
recovery for her state wage law claim. Under the Massachusetts Wage Act ("Wage Act"),
MASS. GEN. LAWS ch. 149 § 148 etseq., MASS. GEN. LAWS ch. 151 § 1 et seq., "an
employee whose employment is terminated involuntarily must be paid in full on the day
of discharge." Prozinski v. Northeast Real Estate Servs.. LLC. 59 Mass.App.Ct. 599. 797
N,E.2d 415. 419 120031. The Wage Act defines wages to include "any holiday or
vacation payments due an employee under an oral or written agreement." MASS. GEN.
LAWS ch. 149 § 148. An employee may bring a civil action to enforce § 148, "provided
the employee first files a complaint with the attorney general and either 90 days elapses
or the attorney general assents to the earlier filing of a private action by the employee."
Clermont v. Monster Worldwide. Inc.. 102 F. Supp. 3d 353. 357-58 (P. Mass. 2015)
(citing MASS. GEN. LAWS ch. 149 § 150). It is undisputed that OTG, following its
policy on vacation pay for terminated workers, did not pay Ms. Mekonnen for her
vacation time on the day she was discharged and did not pay her the $335.70 she was
owed until February 12,2010.
The question remaining concerns the damages to which Ms. Mekonnen is entitled. The
Wage Act provides that a prevailing employee "shall be awarded treble damages, as
liquidated damages, for any lost wages and other benefits and shall also be awarded the
costs of the litigation and reasonable attorneys' fees." MASS. GEN. LAWS ch. 149 §
150. However, if an employer pays the employee after the day of discharge but before the
employee files a complaint, the employer "'is not required to pay treble the lost wages
and benefits'" and must pay only "'the interest foregone from the delay in payment,
which would be trebled under the Act.'" Clermont. 102 F. Supp. 3d at 358 (quoting
Dobin v. CIQview Corn.. 2003 WL 22454602. at *7 (Mass. Super. Oct. 29. 20031'):
Guevara-Saldaso v. 164*164 Haves-Meninno. LLC, 125 F. Supp. 3d 379. 388 (D. Mass.
2015).
Ms. Mekonnen did not file her complaint with the Attorney General until May 10, 2010,
approximately three months after OTG paid her the full amount she was owed.1151 Thus, I
conclude she is entitled as damages to only the foregone interest at the trebled rate caused
by the delay in payment, and not to treble her underlying lost wages and benefits. Dobin.

23

l>-6t

2003 WL 22454602. at *8.1 also conclude she is entitled to her reasonable costs in this
litigation.
Because Ms. Mekonnen is a non-attorney pro se litigant, she cannot recover attorney's
fees. O'Leary v. Nevomuceno. 44 Mass.App.Ct. 683. 693 N.E.2d 70L 703 (19981: see
also Kav v. Ehrler. 499 U.S. 432.434.111 S.Ct. 1435.113 L.Ed.2d 486 (1991) ("[A] pro
se litigant who is not a lawyer is not entitled to attorney's fees." (emphasis in original));
Svkes v. Dish Network. 2005 Mass. App. Div. 58. 60 n. 5. 2005 WL 1216589
("Generally, a party proceeding without legal counsel is not entitled to recover legal
fees.").
Ms. Mekonnen has not herself moved for summary judgment. However, because a
careful review of the record establishes there is no genuine dispute of material facts on
the issue of Wage Act liability and limited damages, I will nevertheless grant summary
judgment for Ms. Mekonnen on her Wage Act claim — since OTG has had adequate
opportunity to address the relevant considerations — see FED. R. CIV. P. 56(f); see also
National Expositions. Inc, v. Crowley Maritime Corn.. 824 F.2d 131. 133-34 (1st Cir.
19871 (noting that the district court has the power to grant summary judgment, even in
the absence of a motion, so long as the party adversely affected has had an adequate
opportunity to show that its "opponent is not entitled to judgment as a matter of law."
(internal quotations and citations omitted) (emphasis in original)).
Ms. Mekonnen shall have judgment of $56.54, as interest trebled, together with
prejudgment interest thereon on the delayed vacation pay.1121 She also shall have only the
costs she actually expended in this litigation.1111
IV. CONCLUSION
For the reasons discussed above:
I GRANT in part OTG's motion [Dkt. No. 183] to strike as specified in Section II of this
Memorandum and Order;
I GRANT OTG's motion [Dkt. No. 164] for summary judgment as to all of Ms.
Mekonnen's discrimination claims, but DENY the motion as to Ms. Mekonnen's
Massachusetts Wage Act claim; and,
I GRANT summary judgment for Ms. Mekonnen as to so much of her Wage Act claim
regarding vacation pay as constitutes prejudgment interest on delayed payment in the
amount of $56.54 together with her only compensable litigation expenses, the costs of
$280.00 incurred in filing this action initially in the state court.
APPENDIX
Two years after this litigation began, Ms. Mekonnen, proceeding pro se, filed a similar
suit against another employer, Ampco System Parking Co., alleging discrimination on the

24

basis of religion, national origin, and sex, and retaliatory termination. See generally,
Mekonnen v. ABM Parking Services, Inc., Case No. l:14-cv-12389-IT, 2014 WL
5112110 (D. Mass. Oct. 10,2014). Judge Talwani dismissed the case for failure to state a
claim under FED. R. CIV. P. 12(b)(6) without prejudice and allowed Ms. Mekonnen to
file amended pleadings. Id. Judge Talwani subsequently dismissed the amended
complaint, finding that Ms. Mekonnen had not alleged sufficient facts to survive a motion
to dismiss. Mekonnen v. ABM Parking Services, Inc., Case No. l:14-cv-12389-IT at Dkt.
No. 53 (D. Mass. July 16, 2015). The First Circuit summarily affirmed this decision.
Mekonnen v. ABM Parking Services, Inc., Case No. 15-2054 (1st Cir. Jan. 3,2018).
Over the past two decades, Ms. Mekonnen's former husband, Begashaw Ayele, who has
plainly directed the tactics of the instant litigation, see supra note 1, has pursued multiple
separate pieces of litigation on his own behalf that provide a template for his former
wife's employment discrimination claims. See generally, Ayele v. Standard Parking Co.,
et. al., Case No. l:96-cv-10267-NG (D. Mass. Oct. 2, 1996), denying interlocutory
appeal, Case No. 96-2230 (1st Cir. Jan 21, 1997) (dismissing three of the four counts of
employment discrimination brought by Mr. Ayele. The parties eventually settled the
remaining count and stipulated to the dismissal of the case on June 25, 1998); Ayele v.
Allright Boston Parking, Inc., Case No. l:96-cv-12201-REK (D. Mass. Dec. 4, 1998),
affd, 201 F.3d 426 (1st Cir. 1999) (per curiam), cert, denied 529 U.S. 1026, 120 S.Ct.
1436, 146 L.Ed.2d 325 (2000) (Mr. Ayele brought suit alleging employment
discrimination and Judge Keeton granted summary judgment in favor of the employer);
Ayele v. Barton Protective Services, Inc., Case No. l:03-cv-11249-NG (D. Mass. March
3,2004) (Mr. Ayele asserted claims of employment discrimination on the basis of, among
other things, race. The parties ultimately settled); Ayele v. Allied Security Co., Case No.
l:04-cv-12216 (D. Mass. July 26, 2005) (Mr. Ayele filed suit for employment
discrimination and wrongful termination. The parties ultimately settled); Ayele v. U.S.
Security Associates, Inc., Case No. l:05-cv-11273-WGY (D. Mass. Oct. 5, 2005),
summarily affd, Case No. 05-2698 (1st Cir. April 5, 2006) (Mr. Ayele alleged that his
employer discriminated against him on the basis of, among other things, race. Judge
Young granted summary judgment for the employer); Ayele v. Cognisa Sec. Co., Inc.,
Case No. l:04-cv-12217, 2005 WL 6431857 (D. Mass. Nov. 18, 2005), summarily affd,
Case No. 01-2874 (1st Cir. May 8, 2006) (Judge Saris, adopting report and
recommendations of Magistrate Judge Bowler granted summary judgment for the
employer with respect to Mr. Ayele's claims for discrimination on the basis of race,
disability, and national origin); Ayele v. Boston University, et. al, Case No. l:01-cv12175-MLW (D. Mass. Dec. 1, 2006), summarily affd, Case No. 07-1358 166*166 (1st
Cir. Nov. 28, 2007) (dismissing after a bench trial Mr. Ayele's claims for race
discrimination and under ERISA); Ayele v. Delta Airlines, Inc., 2018 WL 6001021 (D.
Mass. Nov. 15, 2018) (dismissing Mr. Ayele's claims under MASS. GEN. LAWS ch.
15 IB and Title II of the Civil Rights Act for failing to state a claim).
Nor is Mr. Ayele's extensive litigation experience limited to this court. See, e.g, Ayele v.
Simkins Industries, Inc., 166 F.3d 1199 (2d Cir. Dec. 8, 1998) (per curiam), cert, denied,
528 U.S. 904,120 S.Ct. 243, 145 L.Ed.2d 204 (1999), petition for rehearing denied, 528
U.S. 1107, 120 S.Ct. 853,

25

of Connecticut in favor of the employer following a bench trial on Plaintiffs claims of
employment discrimination).
Moreover, Mr. Ayele's experience in this court is not limited to employment
discrimination suits; he has also pursued other related categories of claim. See generally,
Ayele v. G2 Secure Staff, LLC, Case No. l:17-cv-10417-RGS (D. Mass. May 5, 2017)
(Mr. Ayele sought to vacate or modify an arbitration award entered in favor of his former
employer pursuant to the employment agreement and the National Labor Relations Act
("NLRA"). Judge Steams dismissed the suit, holding that there was no basis for a federal
court to disturb the arbitration agreement); Ayele v. Educational Credit Management
Corp., Inc., Case No. l:12-cv-11005-NMG, 490 B.R. 460 (D. Mass. March 8, 2013),
summarily affd, Case No. 13-1350 (1st Cir. Oct. 22, 2013), cert, denied, 573 U.S. 910,
134 S.Ct. 2736,189 L.Ed.2d 773 (2014), petition for rehearing denied,___U.S.___ , 135
S. Ct. 343, 190 L.Ed.2d 242 (2014) (Mr. Ayele unsuccessfully appealed the decision of
the Bankruptcy court declining to discharge his student debt as part of his Chapter 7
Bankruptcy petition; see in re Ayele, 468 B.R. 24 (D. Mass. Bkr. 2012)).
I'll Ms. Mekonnen has formally proceeded pro se but also has, at all stages in this litigation, been
advised, mostly from behind the scenes, by her former husband, Begashaw Ayele. Though Mr.
Ayele is not an attorney, he unsuccessfully sought to "appear" on behalf of Ms. Mekonnen, [see
Dkt. No. 33], and identified himself as her "assistant," because he has an "economic interest and
knew the plaintiffs case as much as she does knew [s/c] from the beginning to the present." [Dkt.
No. 85].
Throughout this litigation, Mr. Ayele has involved himself in the proceeding as an officious
intermeddler and his participation has interfered with the effective and orderly resolution of the
dispute to such an extent that, during a hearing on September 23, 2014,1 barred Mr. Ayele from
purporting to act further on behalf of Ms. Mekonnen. See Dkt. No. 90; see also Transcript of
hearing at Dkt. No. 92.
Mr. Ayele, and his tactics, are not unknown to various members of this court and at least one of
my colleagues indicated well before this litigation was filed that Mr. Ayele should be treated as a
potentially vexatious litigant. Ayele v. U.S. Security Associates, Inc., Case No. 1:05-CV-11273WGY (D. Mass. Oct. 5, 2005) (order entered electronically, see generally transcript of hearing at
Dkt. No. 22). I have similarly found in this proceeding a lack of candor and an indifference to
procedural rules by both Ms. Mekonnen and Mr. Ayele. I provide in an Appendix a summary of
their respective litigation histories.
That said, I have, as will be evident in this Memorandum, read Ms. Mekonnen's submissions
liberally. See Erickson v. Pardus. 551 U.S. 89. 94. 127 S.Ct. 2197. 167 L.Ed.2d 1081 (2007) (per
curiam") ("A document filed pro se is to be liberally construed . . . and a pro se complaint,
however inartfully pleaded, must be held to less stringent standards than formal pleadings drafted
by lawyers." (internal citations and quotations omitted)). To that end, I have painstakingly sought
to provide a reasoned explanation of my resolution of every alternative theory colorably
presented by Ms. Mekonnen in this litigation.
f21 Mr. Ayele did not mention Ms. Mekonnen's name specifically, but said that he had learned of
These issues from an employee whom hehad_"deepinterestthrough blood-relatiohship,-marrtager
national origin affiliation and the like."
26

been expanded both to include "working" in the definition of a "major life activity" and, in many
respects, reach further than the state definition. See infra note 10.
[21 The Massachusetts Appeals Court discussed this issue at some length in Massasoit Industrial
Corp. v. Mass. Com'n Against Discrimination, 91 Mass.App.Ct. 208, 73 N.E.3d 333, 340 n. 6
(2017). After tracing the histoiy of the ADAAA, the court expressed its view that "these broad
changes in Federal law would be considered material to the Supreme Judicial Court's current
interpretation" of 15 IB and that the court could "look to the ADAAA... for purposes of
interpreting similar language in c. 15IB." Id. But, because the case before it would be affirmed
"even under the law (State and Federal) as it existed before the ADAAA," the court chose not to
"resolve the question ourselves." Id. At least one MCAD decision has since relied on Massasoit
to apply the ADAAA's broader view of disability to 15IB's definition of handicap. Codinha v.
Bear Hill Nursing Ctr., Inc., No. 15-BEM-00248, 2017 WL 1397556, at *7 (MCAD Mar. 30,
2017); see also Garrison v. Lahey Clinic Med. Ctr., No. 07-BEM-00796, 2017 WL 466109, at *6
(MCAD Jan. 6, 2017) (Decision of the Full Commission) (discussing the ADAAA and noting the
MCAD has "historically adhered to" a "less restrictive and more liberal construction of the term
disability" when interpreting 15 IB). The Supreme Judicial Court has apparently not yet explicitly
ruled on this question.
1101 I note, without deciding, that Ms. Mekonnen's request to sit on an elevated chair may
constitute a reasonable accommodation in such circumstances. However, as noted above, any
reasonable accommodation claim based on this kind of request is time-barred.
n 11 OTG has moved to strike the second page of this document. The second page is Ms.
Mekonnen's calculations of her hours worked based on her earnings statements, while the other
pages are copies of her earning statements and two calendars for the years 2008 and 2009. As 1
indicated when discussing the motion to strike, I will treat her calculations and conclusions as
argument and not as substantive evidence in its own right.
fl 21 For all of these checks, I use the gross amount in order to calculate the hours she worked.
H31 At the time, Ms. Mekonnen was paid $9 per hour.
f!41 Again, the final stage of the McDonnell Douglas framework "appears to be slightly less
stringent" under 15IB than under federal law, for a plaintiff can "overcome a motion for
summary judgment if the plaintiff shows that just one of the proffered reasons was pretextual."
Douglas v. J.C. Penney Co.. Inc.. 474 F.3d 10. 14 n. 2 (1st Cir. 2007).
fl 51 In her opposition to summary judgment, Ms. Mekonnen contends she was treated differently
than Mr. Temesgen because both of them spoke on their cell phones during work, but only she
was terminated. She again does not support this assertion with admissible evidence. In response,
OTG submitted an affidavit from Mr. Khayat, in which he claims he never knew that Mr.
Temesgen spoke on his cell phone during his work shift.
fl 61 Although Ms. Mekonnen appears to dispute in her opposition to summary judgment
precisely when she received payment from OTG for her vacation benefits, in her complaint to the
Attorney General, she herself stated that "I received my vacation pay check on February 12,
2010."

28

fl71 Ms. Mekonnen was terminated on November 19, 2009 and was paid $335.70 for her lost
vacation benefits on February 12,2010, a delay of 79 days. Consequently, at the state interest rate
of 12%, interest on the $335.70 is $8.72 ($335.70 times .12 (the state interest rate) times .22
(79/365)). Because Ms. Mekonnen is entitled to treble damages, this generates a base liquidated
damages figure of $26.16.
Ms. Mekonnen is also entitled to pre-judgment interest on the $26.16 in damages from November
19, 2009 to July 25, 2019 at the 12% state interest rate. She is therefore entitled to $30.38 (26.16
times .12 (the state interest rate) times 9.68 (representing 9 years and 250 days)) in pre-judgment
interest.
H81 Ms. Mekonnen's court costs total $280.00, representing the $240 filing fee, $20 security fee,
and $15 surcharge she paid when initiating this matter in Suffolk County Superior Court, and the
$5 fee for issuing summons. Because the case was removed to federal court by OTG, OTG bore
the separate cost of filing in this court.

29

Additional material
from this filing is
available in the
Clerk's Office.

